                                  CLOSEOUT MEMORANDUM




This case was opened 'as the result of an email fiom a program officer ( ~ 0 ) The
                                                                               ~ . email relayed
information the PO received fiom a project director3 alleging that NSF funds had been
improperly spent4during the first summer of the grant5.

The original           investigator6(PI) left the project one month into the award period7.
Because of the late ;fundingd a t e k d PI'S departure, the project was not able to run at full
capacity the first synmer? The project director/complainantwas originally concerned that NSF
funds had been misused during the first summer o. However, the complainant later recanted the


When questioned about the recantation," the complainant stated helshe did not have access to
grant related docyents and other details at the time the complaint was made. Via fax the
complainant provided a written explanation with supporting documents12detailing how NSF
funds were used during the period in question.13 The acting head of the awarding division is




                                                                                NSF OIG Form 2 (1 1/02)
1




                                               OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM




    aware of the issues s+ounding the first season.'' The project was given a supplemental award

                              Y
    Based on the information received and a review of the proposal, it does not appear that any
    wrongdoing occurred.

    Accordingly, this case is closed.

                         11




                        I/
